HHS/OIG-Audit--"Review of Unfunded Pension Costs of Blue Cross and Blue Shield of Florida, (A-07-95-01126)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unfunded Pension Costs of Blue Cross and Blue Shield of Florida,"
(A-07-95-01126)
December 7, 1995
Complete Text of Report is available in PDF format
(155 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report showed that Blue Cross and Blue Shield of Florida did not
make contributions to the pension trust fund for Plan Years 1990 and 1991. Accordingly,
Florida did not fund the pension costs identifiable with its Medicare segment
for these years. In addition, the 1993 contribution did not fully fund the entire
pension cost. As a result, accumulated unfunded pension costs increased by $4,049,889
to $6,428,087 as of January 1, 1994. Florida must separately identify and eliminate
$6,428,087 from the amortization components of future pension costs. Florida
agreed with the recommendations.